                   UNITED STATES DEPARTMENT OF EDUCATION
                                     OFFICE OF INSPECTOR GENERAL
                                          61 FORSYTH STREET, Room 18T71
                                              ATLANTA, GEORGIA 30303
                                          Telephone: (404) 562-6470      Fax: (404) 562-6509



                                                        June 7, 2005


                                                                                                       Control Number
                                                                                                     ED-OIG/A04E0007

Kathy Cox
State Superintendent of Schools
Georgia Department of Education
2066 Twin Towers East
Atlanta, Georgia 30334-5001


Dear Superintendent Cox:

This Final Audit Report, entitled Georgia Department of Education’s Compliance with the
Unsafe Schools Choice Option Provision, presents the results of our audit. The purpose of the
audit was to determine whether (1) Georgia’s Unsafe School Choice Option (USCO) policy
complied with Title IX, Part E, Subpart 2, § 9532 of the Elementary and Secondary Education
Act (ESEA) and applicable U.S. Department of Education (Department) guidance and (2) the
Georgia Department of Education (GDOE) adequately implemented the policy at the State and
local education agency (LEA) levels. Our review covered school year 2002-2003 (for reporting
requirements) and the start of school 2004 (for transfer of affected students and review of
corrective action plans).



                                                 BACKGROUND 


The USCO in Section 9532 requires that states receiving funds under the ESEA establish and
implement a statewide policy requiring that students attending a persistently dangerous public
school, or students who become victims of a violent criminal offense while on the grounds of a
public school they attend, be allowed to attend a safe public school. The Department issued the
Unsafe School Choice Option Non-Regulatory Guidance in May 2004. (This guidance was
issued in draft form in July 2002.)

States were expected to be in full compliance with USCO requirements for the 2003 school year,
and were to identify those schools that met the state’s definition of persistently dangerous by
July 1, 2003. Districts were to provide victims of violent crimes the option to transfer at least 14
calendar days prior to the start of the 2004 school year. Georgia implemented the USCO policy
through the Georgia Department of Education Rule 160-4-8.16, Unsafe School Choice Option.


Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
GDOE’s Rule 160-4-8.16 defines a persistently dangerous school as any school in which for
three consecutive years:

    • 	 At least 1 student is found by official action1 to have violated a school rule related to a
        violent criminal offense (including aggravated battery, aggravated child molestation,
        aggravated sexual battery, aggravated sodomy, armed robbery, arson, kidnapping,
        murder, rape, and voluntary manslaughter) either on campus or at a school-sanctioned
        event.
    • 	 At least 2 percent of the student body or 10 students, whichever is greater, have been
        found by official action to have violated school rules related to other identified criminal
        offenses, including non-felony drugs, felony weapons, terrorist threats.
    • 	 Any combination of 1 and 2.

Under GDOE’s USCO Rule 160-4-8.16, a school shall offer to transfer a student to another
school after the third consecutive year, but the victim of a violent crime at school must be offered
the right to transfer immediately. Though a school must meet these criteria for three consecutive
years in order to be labeled “persistently dangerous,” local and State officials will work with
school administrators, parents, educators, and others to address the problem after just one year.

GDOE developed its definition of “persistently dangerous” schools (PDS) in consultation with
the School Administrators of Georgia and staff from the LEAs. GDOE officials also considered
other state policies and formed discussion groups to discuss how the Georgia policy should be
implemented. The discussion groups consisted of State officials and various officials from
LEAs.

GDOE rules required LEAs to collect statistics on student criminal incidents at schools prior to
USCO. The information collected was similar to the Georgia USCO requirements for reporting
incidents, and was reported as part of the LEAs’ annual school report certifications to the GDOE.
For the 2002-2003 school year, LEAs used the information collected for 2000 through 2003
school years and reviewed tribunal records to report USCO incidents and determine if a school
was persistently dangerous.

GDOE officials were unable to code USCO incidents into their statewide school record system
for the 2002-2003 school year. As a result, GDOE established a website and required LEAs to
self-report their USCO incidents for that school year. Beginning with the 2003-2004 school
year, USCO incidents can be recorded when identified by the LEA into the state record system.
At the end of the school year, the LEA superintendent must certify as to the accuracy of the
reported incidents along with all the other reported student information.

GDOE determined that none of Georgia’s schools met the State’s definition of “persistently
dangerous” in school years 2002-2003 or 2003-2004.


1
  Georgia Rule 160-4-8.16 defines an official action as an official tribunal held by the school; a hearing conducted
by a disciplinary hearing officer of the school system; through a waiver process; or through an action of the local
board of education.


ED-OIG/A04E0007                                FINAL REPORT 	                                Page 2 of 14
                                    AUDIT RESULTS 


GDOE’s USCO policy generally complies with § 9532 of the ESEA and the Department’s
guidance. However, GDOE has not adequately implemented Georgia’s USCO policy because it
did not ensure the policy was implemented at the local level. The three LEAs covered by our
audit did not report all incidents of criminal offenses to GDOE (See Finding No. 1), and the
LEAs did not address the USCO transfer options (See Finding No. 2).

In its response to the draft report, GDOE indicated its plans for implementing our
recommendations. GDOE’s comments are summarized at the end of each finding and the full
text of the comments is included as Attachment 1.


FINDING No. 1 – LEAs Did Not Report All Student Criminal Offenses For
                GDOE To Consider In Determining Persistently Dangerous
                Schools

The figures reported to the GDOE by the three LEAs we reviewed did not include all offenses
based upon the GDOE’s USCO policy. As a result, GDOE did not have sufficient information to
ensure that it identified unsafe schools and appropriately made PDS designations. In addition,
LEAs had different interpretations of GDOE’s USCO policy. Although, the inclusion of the
incidents cited did not result in any of the schools being identified as persistently dangerous,
inaccurate reporting could result in persistently dangerous schools not being identified in the
State of Georgia in the future.

GDOE policy requires determination of a USCO incident based on Georgia criminal code. In
addition, GDOE policy requires that LEAs shall annually report data regarding students found by
official action to be in violation of a school rule related to a criminal offence. Official action is
defined as an action that include an official tribunal held by the school system, a hearing
conducted by a disciplinary hearing officer of the school system, through a waiver process or
through an action of the local board of education. GDOE’s USCO policy identified criminal
offenses to include aggravated battery, child molestation, sexual battery, and sodomy. Other
offenses include armed robbery, first degree arson, felony drug charge, felony weapons,
kidnapping, murder, rape voluntary manslaughter, terroristic threats, and misdemeanor drug
charges.

LEA officials and school principals often had different interpretations of what constituted
aggravated battery, terrorist threat, and other USCO incidents. For instance, Houston County
allows the school principals to make the determination of a USCO incident that is reported to
GDOE; whereas, Gwinnett County and Atlanta Public Schools centrally determine criminal
incidents based on tribunals as required by GDOE policy. Another example is that Gwinnett
County did not require first-time marijuana offenses to have a tribunal; therefore, the first-time
marijuana incidents were not reported. If GDOE’s USCO policy had been consistently


ED-OIG/A04E0007                         FINAL REPORT                            Page 3 of 14
interpreted by the LEAs, GDOE may have had better information to use in analyzing schools and
determining whether a school should be considered a PDS.

At each of the three LEAs, we reviewed records at three schools and identified unreported
incidences that should have been reported under GDOE’s USCO policy. These incidents were
identified either from tribunal records, discipline records, or serious incident reports.

• 	 Houston County did not report six criminal incidents to the State. These included one
    aggravated battery, three felony weapons, one terroristic threat, and one felony drug
    incidents. The County disagreed with our aggravated battery determination for Northside
    High School stating permanent physical harm did not occur to the student. However, the
    fight we defined as aggravated battery resulted in a broken leg, which met the State criminal
    code definition of aggravated assault.

          Table 1.1 – Houston County Public Schools Unreported Incidents 2002-2003
                               Northside     Warner Robins      Crossroad        Total
    Type of Incidents         High School      High School     High School Unreported
    Aggravated Battery:
      Reported                     0                0               0
      Unreported                   1                0               0              1
    Felony Drug:
      Reported                     0                1               6
      Unreported                   0                0               1              1
    Terrorist Threats:
      Reported                     0                0               3
      Unreported                   1                0               0              1
    Felony Weapons:
     Reported                      0                0               1
     Unreported                    2                1               0              3
    Total                                                                          6


• 	 Gwinnett County did not report 28 non-felony drug incidents (27 first-time marijuana) and
    three felony drug incidents. Gwinnett County did not require first-time marijuana offenses to
    have a tribunal; therefore, 27 first-time marijuana incidents were not reported. Since USCO
    incidents in Gwinnett County are based on tribunal records, the first-time marijuana offenses
    were not recorded. Gwinnett County stated that it did not believe that they were in violation
    of GDOE’s USCO policy because first-time marijuana offenses did not result in an “official
    action” as required by GDOE. Official Code of Georgia criminal offenses identified in
    GDOE’s USCO policy include non-felony drug charges. Non-felony drug charge is defined,
    as any person who is charged with possession of marijuana, which possession is of one ounce
    or less, shall be guilty of a misdemeanor. We determined that to consistently apply the
    GDOE’s policy, Gwinnett should report first-time offenses that meet the criminal code
    definition.




ED-OIG/A04E0007                        FINAL REPORT 	                         Page 4 of 14
           Table 1.2 – Gwinnett County Public School Unreported Incidents 2002-2003

                                N. Gwinnett      Brookwood           Dacula           Total
   Type of Incidents            High School      High School       High School      Unreported
   Non-felony Drug:
     Reported                        36               14                42
     Unreported                      14               7                 7                28
   Felony Drugs:
     Reported                        23               10                9
     Unreported                      2                1                 0                3
   Total                                                                                 31


•		 Atlanta Public Schools did not report two felony weapons incidents, four felony drug
   incidents, and one non-felony drug incident. Atlanta Public School’s officials did not
   disagree with any of these determinations. They stated USCO determinations were based on
   tribunals and in the 2002-2003 school year some incidents did not receive a formal tribunal.

               Table 1.3 – Atlanta Public Schools Unreported Incidents 2002-2003
                                   Grady           Therrell            CEP              Total
    Type of Incident            High School       High School       High School       Unreported
    Non-felony Drugs:
      Reported                       3                 2                 4
      Unreported                     1                 0                 0                   1
    Felony Drug:
      Reported                       0                 0                 0
      Unreported                     1                 2                 1                   4
    Felony Weapons:
      Reported                       2                 6                 4
      Unreported                     0                 2                 0                   2
    Total                                                                                    7


The above instances of non-reporting by the LEAs would not have resulted in any school being
identified as persistently dangerous. We provided detailed information concerning the
unreported incidents to the GDOE for their review. GDOE officials believed that the inaccurate
reporting that occurred in the 2002-2003 school year was the result of having to use existing
student incident data collected for GDOE reporting requirements to meet USCO requirements.
LEA officials indicated that they did not receive the official USCO policy until shortly before the
reporting date. Since the revised USCO policy required LEA officials to review previous years’
reported incidents, they did not have adequate time to determine whether incidents were properly
classified. GDOE officials believe that the 2003-2004 USCO information was more reliable
because LEAs have implemented systematic procedures to capture USCO incidents when they
occur.

The Department of Education Unsafe School Choice Option Non-Regulatory Guidance, dated
May 2004, states that in order to ensure that the USCO data are of high quality, current, and


ED-OIG/A04E0007                           FINAL REPORT 	                      Page 5 of 14
comparable across LEAs in the State, state educational agencies should ensure that LEAs receive
appropriate training and technical guidance pertaining to collecting the necessary data. GDOE’s
USCO Policy requires USCO incidents to be based on Georgia criminal code and official school
tribunals; however, LEAs had different interpretations of GDOE’s USCO policy.

GDOE officials stated that GDOE USCO policy was sufficiently clear to result in a consistent
policy statewide because it is based on Georgia criminal code and requires a tribunal court
decision for each USCO incident. Therefore, it has been GDOE’s policy not to provide its own
interpretation regarding the classification of an offense where the tribunal adjudicated the matter.
As a result, GDOE did not formally train LEAs and monitor LEA implementation of USCO in
2002-2003 year. In addition, GDOE officials stated that they were not aware of different
interpretations by LEAs.

According to GDOE officials, GDOE recognizes the need to provide more technical assistance
and training in the future to help LEAs to report consistent data. GDOE officials stated that in
implementing the provisions of USCO Rule, they have identified potential areas for further
refinement of the USCO Rule. Two of these potential areas for refinement involve the failure to
report certain incidents where (a) local board rule does not require use of a tribunal for the
alleged offense and (b) the tribunal has not had time to convene and render a decision prior the
end of the school year. GDOE stated that it plans to address these two areas with additional state
legislation and amendments to the USCO Rule. Also, GDOE stated that it plans to use Safe and
Drug Free coordinators to review LEAs implementation of the Georgia USCO policy.

Recommendation

We recommend that the Deputy Under Secretary for Safe and Drug-Free Schools provide
technical assistance to GDOE in implementing—

1.1 	   Effective training and monitoring at the LEA level to ensure all USCO incidents are
        reported in a consistent manner.

1.2 	   A review process to ensure that all USCO incidents are accurately reported.

GDOE Comments

GDOE acknowledged the need for more training and monitoring at the LEA level to ensure all
USCO incidents are reported.


FINDING No. 2– LEAs Did Not Offer the USCO Transfer Option

None of the LEAs reviewed formally offered victims of violent crime the right to transfer to
another school as required by USCO. Nor had any of the LEAs implemented a formal
mechanism offering the right to transfer. Without a formal mechanism for offering the transfer,
victims of violent crimes may have remained in an unsafe environment. In addition, we did not
identify any procedures at GDOE or the LEAs to track the number of victims of violent crime


ED-OIG/A04E0007                         FINAL REPORT 	                         Page 6 of 14
and whether they were offered the right to transfer. As a result, the LEAs might not have
accurately reported the number of victims transferring due to violence and GDOE might not have
the information necessary to make an assessment of PDS.

Title IX, Part E, Subpart 2, Section 9532 of the No Child Left Behind Act of 2001 requires that
each State provide to a student who becomes the victim of a violent criminal offense while in or
on the grounds of that student’s public elementary or secondary school the opportunity to
transfer to a safe school. The LEAs did not offer victims of violent criminal offenses the transfer
option because none of the LEAs reviewed had developed policies or procedures for offering
victims the transfer option. LEA officials informed us that they would have agreed to transfer
the student, if requested. The LEAs stated that they believed that the GDOE Policy only
required that a transfer be made available if the student wished to be transferred. The LEAs did
not interpret the policy to require a formal written letter to parents. However, GDOE officials
stated that Georgia’s USCO Rule requires that LEAs adopt a policy that facilitates the transfer of
students who are victims of violent criminal offenses.

As a part of their revision and amendments to the USCO Rule, GDOE is considering options
regarding the provision of written notice of transfer to parents by the local school system. In
addition, at the time of our audit, GDOE had not initiated any monitoring activities to assess
LEA compliance with its USCO policy.

Recommendation:

We recommend that the Deputy Under Secretary for Safe and Drug-Free Schools require
GDOE to—

2.1 	   Require LEAs to include the transfer option in their written policies and retain
        documentation showing that victims’ parents were notified of the USCO transfer option
        and whether a transfer was requested and completed.

2.2 	   Monitor LEA compliance with Georgia’s USCO policy, including (a) reviewing LEAs’
        transfer policies; (b) confirming that students who were victims of violent crimes were
        provided the option to transfer to a safe school; and (c) verifying that documentation was
        retained showing that victims’ parents were notified of the USCO transfer option and
        whether a transfer was requested and completed.

GDOE Comments

GDOE stated that it planned to amend its USCO Rule to require written notification of the right
to transfer to victims of violent criminal offenses.




ED-OIG/A04E0007                         FINAL REPORT 	                         Page 7 of 14
                  OBJECTIVES, SCOPE, AND METHODOLOGY 


The audit objective was to determine whether (1) Georgia’s USCO policy is in compliance with
Title IX, Part E, Subpart 2, Section 9532 of the Elementary and Secondary Education Act
(ESEA) and applicable U. S. Department of Education guidance, and (2) if the policy was
adequately implemented at the State and local levels.

The audit period encompassed the school year 2002-2003 (for reporting requirements), and the
start of the school year 2004 (for transfers of affected students and review of corrective action
plans).

There are 183 LEAs in the State of Georgia. We obtained Federal formula grant funding
information from GDOE’s website and stratified the LEAs into three groups based on the
amount of funding they received – funding 1) greater than $10 million; 2) between $5 million
and $10 million; and 3) less than $5 million. We limited our review to the LEAs in the two
groups with the higher levels of funding – $5 million and above.

We obtained juvenile arrest information from the Georgia Bureau of Investigation’s (GBI)
Uniform Crime Reporting Division for all counties in Georgia. We judgmentally selected one
LEA from each of the top two funding groups based on the highest number of instances of
juvenile arrests in the respective county. Atlanta Public Schools and Houston County Schools
were the LEAs selected from group one and group two, respectively. In addition, we
judgmentally selected Gwinnett County Schools (GCP) for review from group one because GCP
was identified in the local news media as misreporting student crime data, and they initially
identified one school as persistently dangerous.

At the three LEAs selected for review, we judgmentally selected three schools in each LEA to
review based on highest number of reported USCO incidents to GDOE. The review at the LEAs
consisted of looking at LEA hardcopy and computer records of student incidents reported for the
three schools selected for review. We then compared the LEA computer records of reported
incidents to the school’s student incident reports, official tribunal reports, and police reports to
determine if any USCO incidents were not reported. The following table shows the schools
reviewed for each LEA and the reported USCO incidents.2




2
  The reported USCO incidents in the table reflect the major incidents reported by GDOE and the incidents of non-
felony drugs, felony drugs, felony weapon and terroristic threat meeting the first criteria in the Georgia USCO Rule.


ED-OIG/A04E0007                                FINAL REPORT                                  Page 8 of 14
                   Schools Reviewed and Their Number of Reported USCO Incidents
        Houston County Public         Gwinnett County Public
                                                                   Atlanta City Public Schools
               Schools                       Schools

    Warner Robbins High School     North Gwinnett High School         Grady High School
           2002-2003 – 3                 2002-2003 – 75                 2002-2003 – 5
        Northside High School        Brookwood High School           Therrell High School
           2002-2003 – 5                 2002-2003 – 30                 2002-2003 – 8
       Crossroads High School          Dacula High School        CEP Partnership High School
          2002-2003 – 10                2002-2003 – 59                 2002-2003 – 8


To meet the objectives of our audit, we relied, in part, on computer-processed data that GDOE
used to report USCO violations by LEAs. Each LEA person that enters information onto the
GDOE website for USCO information (as well as other information reported under the end of
year student record data collection) must use a user identification and password to log into the
system. Once all of the information is entered into the system, the superintendent must signoff
on the data certifying that the information is accurate and complete. The audit team reviewed
and compared USCO data shown on GDOE’s website for sample LEAs with information
obtained on-site at each LEA to determine the reliability of the data. Based on our assessment
and tests, we concluded that the computer-processed data GDOE provided was sufficiently
reliable for the purposes of our audit.

We conducted our audit fieldwork during the period August through December 2004. As part of
our audit, we visited (1) GDOE’s offices in Atlanta, Georgia; (2) Atlanta Public Schools’ offices
in Atlanta, Georgia; (3) Gwinnett County Schools’ offices in Lawrenceville, Georgia and
Houston County Schools’ in Perry, Georgia. We contacted LEA officials as necessary to obtain
additional information and clarifications during our audit work. We held an exit conference with
GDOE officials on March 8, 2005.

The audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.



                  STATEMENT ON INTERNAL CONTROLS


As part of our audit, we assessed GDOE's internal control structure, policies, procedures, and
practices applicable to its USCO Policy. To make our assessment, we classified significant
control into the following categories.

   •   Policy formulation and implementation
   •   GDOE certification of compliance with Section 9532 of the ESEA.
   •   GDOE and LEA data collection and reporting.
   •   LEA implementation of the USCO transfer option.


ED-OIG/A04E0007                        FINAL REPORT                            Page 9 of 14
   •   GDOE Oversight of subsequent action (transfer options and corrective action plans

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in GDOE's USCO Policy internal
controls. However, our study and evaluation disclosed significant internal control weakness that
could adversely affect the administration of the USCO policy at the local level. Specifically,
LEAs lacked adequate procedures and/or documentation for 1) the identification and reporting of
USCO incidents, including a lack of consistent interpretation of the criteria for classifying
incidents; and 2) implementation of the USCO transfer option. This weakness and its impact are
discussed in the AUDIT RESULTS section of this report.

We did not assess the adequacy of the internal control structure of GDOE and the three LEAs
that we audited because such assessments were not necessary to achieve our audit's objective.
Instead, we obtained an understanding of the processes that GDOE and the three LEAs used to
determine compliance with GDOE’s USCO Policy and determined whether the processes were
in compliance with the applicable law and regulations.



                          ADMINISTRATIVE MATTERS 


Statements that managerial practices need improvement, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective actions to be taken will be made by the appropriate Department
officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
officials who will consider them before taking final Departmental action on this audit —

                              Deborah A. Price
                              Assistant Deputy Secretary
                              Office of Safe and Drug Free Schools
                              U.S. Department of Education
                              Federal Building No. 6, Room 1E110
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.



ED-OIG/A04E0007                        FINAL REPORT                          Page 10 of 14
                     Sincerely, 


                     /s/      


                     Denise M. Wempe 

                     Regional Inspector General for Audit 




Attachment




ED-OIG/A04E0007   FINAL REPORT                     Page 11 of 14
                                                    Attachment 1




                  GEORGIA DEPARTMENT OF EDUCATION 

                   COMMENTS ON THE DRAFT REPORT 





ED-OIG/A04E0007            FINAL REPORT        Page 12 of 14
May 9, 2005
                                                                  Control Number
                                                                 ED/OIG A04-E0007

Ms. Denise M. Wempe
Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
61 Forsyth Street, Room 18T71
Atlanta, Georgia 30303

Dear Ms. Wempe:

Thank you for providing the United States Department of Education’s (“Department”) draft audit
report, entitled Georgia Department of Education’s Compliance with the Unsafe Schools Option
Provision, (“Draft Audit Report”) to the Georgia Department of Education (“GDOE”) for review
and comment. We appreciate the opportunity afforded the GDOE to respond in writing and in
person to audit findings as outlined in the Draft Audit Report.

FINDING NO. 1	       LEAs Did Not Report All Student Criminal Offenses For GDOE To
                     Consider In Determining Persistently Dangerous Schools.

While the GDOE had not previously been made aware of the “unreported” incidents from the
Houston County, Gwinnett County, and the Atlanta Public School systems as cited in the Draft
Audit Report, the GDOE has acknowledged the need to extend its technical assistance to the
LEAs in an effort to improve the validity and reliability of the USCO data submitted by the
LEAs. Furthermore, as evidenced by Gwinnett County’s position with respect to reporting first-
time marijuana offenses, the GDOE agrees that effective training and monitoring at the LEA
level and review of reported USCO incidents as contained in recommendations 1.1 and 1.2 are
important steps towards ensuring that all student offenses are properly reported by the LEAs.




ED-OIG/A04E0007                        FINAL REPORT 	                    Page 13 of 14
Recommendations 1.1 and 1.2 involve processes presently under consideration by the GDOE.
We trust that working with the Deputy Under Secretary for Safe and Drug-Free Schools on the
above-noted processes will prove to be helpful as the GDOE seeks to refine its USCO reporting
process.

FINDING NO. 2          LEAs Did Not Offer The USCO Transfer Option

Georgia’s USCO Rule does require that local boards of education adopt policies that facilitate
the transfer of students who are victims of violent criminal offenses and wish to transfer to
another school within ten school days of the commission of the violent criminal offense.
Because Georgia’s USCO Rule fails to clearly require written notice to parents regarding the
transfer rights contained in the law, Georgia’s USCO Rule will be amended to address this issue.

Moreover, as previously stated in our December 16, 2005 letter regarding the initial audit
findings, the GDOE’s development of its Statewide Student Information System will allow for
the reporting of data regarding the transfer of students who were victims of violent crimes. Thus,
the GDOE is preparing to amend Georgia’s USCO Rule pursuant to Recommendation 2.1 and to
develop the necessary reporting processes to ensure full compliance regarding the USCO transfer
option as required by Recommendation 2.2.

Again, I appreciate the opportunity to respond to the Draft Audit Report in writing. This process
has been helpful to our continued effort to improve and refine Georgia’s USCO Rule and its
monitoring and enforcement. Finally, the GDOE looks forward to the assistance offered in the
Draft Audit Report from the Deputy Under Secretary with respect to Recommendations 1.1 and
1.2. I trust we will be able to build a model system of USCO reporting and compliance in
Georgia.

If I can be of further assistance, do not hesitate to contact me directly.

Very truly yours,

/s/ Kathy Cox

Kathy Cox

KC/sg
cc: 	 Ms. Wanda Barrs, Chair, State Board of Education
      Mr. Stuart Bennett, Chief Deputy Superintendent
      Dr. Jeanie Weathersby, Deputy Superintendent
      Mr. Judson Turner, General Counsel
      Mr. Phil Hulst, Director of Learning Support




ED-OIG/A04E0007                          FINAL REPORT 	                      Page 14 of 14
